No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY J. BATOR et al - Petitioner
vs.

\

DAVID NILSSON et al - Respondent(s)

PROOF OF SERVICE
I

do declare that on this date of March

11,2021, as required by Supreme Court Rule 29,1 have served the enclosed Motion
to Proceed in Forma Pauperis and Petition for Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be served
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first class postage prepaid, or by delivery to
a third party commercial carrier for de31ivery within 3 calendar days.
23 | P a 3 *

The names and addresses of those served are as follows:
David R Griffith Esq. #170172
Griffith and Horn LLP
1530 Humboldt Road Suite 3
Chico, California 95928
Telephone 530-812-1000
I declare under penalty of perjury that the foregoing is true and correct;
Executed on this day March 11,2021.

j

24 p -

i

